                                       SOCIAL SECURITY
        MEMORANDUM


Date:   June 26, 2002                                                         Refer To:

To:     The Commissioner

From:   Inspector General

Subject:   Follow-up Evaluation of the Use of Official Time for Union Activities at the Social
           Security Administration (A-13-01-11005)

        The attached final report presents the results of our evaluation. Our objective was to
        assess the corrective actions the Social Security Administration (SSA) had taken to
        address recommendations in our July 1998 report, Use of Official time for Union
        Activities at the Social Security Administration (A-13-97-72013). Specifically, we
        examined the actions SSA took to improve the recording and reporting of official time
        and SSA’s related management oversight.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                           James G. Huse, Jr.

        Attachment
            OFFICE OF
     THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


      FOLLOW-UP EVALUATION OF
         THE USE OF OFFICIAL
      TIME FOR UNION ACTIVITIES
AT THE SOCIAL SECURITY ADMINISTRATION

      June 2002   A-13-01-11005
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           Executive Summary
OBJECTIVE
The objective of our review was to assess the corrective actions the Social Security
Administration (SSA) has taken to address recommendations in our July 1998 report,
Use of Official time for Union Activities at the Social Security Administration
(A-13-97-72013). Specifically, we examined the actions SSA took to improve the
recording and reporting of official time1 and SSA’s related management oversight.

BACKGROUND

In June 1996, the House Committee on Ways and Means conducted hearings on labor
union activities at SSA. During the hearings, the General Accounting Office provided
the results of its review of the time and costs associated with union activities at SSA.
Based on its limited verification of hours spent on union activities as reported by SSA,
the General Accounting Office reported that official time was underreported. The
General Accounting Office testified that “…it is not possible to estimate the actual time
spent agencywide for any reporting period because of limitations in SSA's reporting
systems.”2 Consequently, Congress requested that we provide a more in-depth
examination of the use of official time and associated costs.

In 1998, we reported the results of our audit of SSA’s Fiscal Year (FY) 1996 official time
use and costs. We concluded that management oversight weaknesses and problems
associated with SSA’s processing and reporting of official time prevented the Agency
from producing reliable reports. We made specific recommendations for improving the
recording, reporting, and management oversight of official time (Appendix A).

In March 2000, we responded to a request from the Committee on Ways and Means,
Subcommittee on Social Security, concerning the status of corrective actions SSA had
taken to address our 1998 report. As part of our response, we informed the
Subcommittee that we would initiate a follow-up review of SSA’s reported corrective
actions. We reviewed actions taken in response to 8 of 10 recommendations.3 Since
the Agency was limited in its ability to respond to one recommendation and did not
agree with the other recommendation, we did not review SSA’s actions related to these
matters. This report provides the results of our follow-up review.


1
  Official time is granted by negotiation of a bargaining agreement for time during which an SSA employee
is performing union-related activities rather than performing Agency-assigned work.
2
    GAO/HEHS-97-3 report.
3
  Of the 10 recommendations contained in the report, we reviewed Agency actions intended to address
report recommendations 1, 3, 4, 5, 6, 7, 8, and 10.

Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)                            i
Each year, as requested by the House Appropriations Committee Report 105-205,
Federal agencies report labor union-related activities and costs to Congress. In
FY 2000, SSA reported that it used about 403,500 official time hours for union-related
activities at a cost of approximately $13.5 million. The Agency also reported that
1,864 union representatives used official time. Of these, 127 union representatives
“spent 100 percent of their time on union activities."4

SSA's Oversight of Official Time Use

The Office of Labor-Management and Employee Relations (OLMER) within the Deputy
Commissioner’s Office of Human Resources at SSA Headquarters administers the
Agency’s labor-management and employee relations program. OLMER also represents
the Agency in labor union negotiations; develops Agency-wide policies and procedures
for the use of official time; oversees the recording, reporting, and management of official
time; and reports official time use and costs to Congress.

RESULTS OF REVIEW

SSA took action to address certain recommendations contained in our July 1998 report,
Use of Official time for Union Activities at the Social Security Administration
(A-13-97-72013). Although SSA has taken action to address the recommendation
concerning the retention of official time records, the Agency's policy did not comply with
Federal requirements.

CONCLUSION AND RECOMMENDATION
SSA has taken action to address our July 1998 recommendations to improve the
recording, reporting, and management oversight of official time use. For example, the
Agency created a special team to provide management oversight of official time. Such
actions indicate the Agency continues to make progress toward improving its
accountability of official time use and costs. Although SSA did take action to address
our recommendations, a noteworthy deficiency still exists concerning the retention of
official time records. The Agency's policy for the retention of time and attendance
records should comply with Federal requirements. Consequently, we recommend that
SSA:

1. Update its policies to comply with Federal requirements to ensure that time and
   attendance records are retained for 6 years.




4
 An employee using official time to perform representational activities for 75 percent or more of all work
hours is considered a full-time union representative.

Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)                                  ii
AGENCY COMMENTS

SSA agreed with our recommendation. In addition, the Agency provided technical and
editorial comments. The full text of the Agency’s comments is included in Appendix C.

OIG RESPONSE
We reviewed the Agency's formal comments and agree with the editorial changes. In
addition, we agree in part, with the technical comments related to the Other Matters and
have made the appropriate changes.

SSA stated in its technical comments that its record retention schedules are in full
compliance with the National Archives and Record Administration’s guidelines that Time
and Attendance rosters be kept 6 years. Further, the Agency stated that it maintains its
retention schedules in the Operational and Administrative Records Schedules System
(OARS) on the SSA Digital Library (http://library.ba.ssa.gov/quicklist.htm). We were
unable to verify this information.

Moreover, the Agency stated that the problem cited in our report refers to an addendum
made to the 1998 Official Time/Partnership Yearbook instructing supervisors of Union
Representatives to maintain official time forms for 3 years. We disagree with the
Agency. We based our review on the Agency’s records retention policy for time and
attendance, which is denoted in the Department of Health and Human Services’ Guide
for Timekeepers. During our review, staff in the Center for Policy and Staffing, within
the Office of Personnel Operations, identified the Department of Health and Human
Services’ Guide as containing the Agency’s official time and attendance record retention
policy.




Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)           iii
                                                           Table of Contents
                                                                                                                 Page

INTRODUCTION.................................................................................…………… 1

RESULTS OF REVIEW ..........................................................................................6

Agency Had Taken Action to Address Certain Report
Recommendations ................................................................................................6

·   SSA took action concerning the recording and reporting of official time………..6

·   SSA created a special team to oversee official time use…………………………9

SSA's Record Retention Policy did not Comply with Federal
Requirements ........................................................................................................9

CONCLUSION AND RECOMMENDATION .........................................................11

OTHER MATTERS ...............................................................................................13


APPENDICES

APPENDIX A — Prior Office of the Inspector General Audit
APPENDIX B — Sampling Methodology
APPENDIX C -- Agency Comments
APPENDIX D — OIG Contacts and Staff Acknowledgments




Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)
                                                                     Acronyms

 AFGE                 American Federation of Government Employees
 COBOL                Common Business Oriented Language
 CSRA                 Civil Service Reform Act of 1978
 FY                   Fiscal Year
 OLMER                Office of Labor-Management and Employee Relations
 OUTTS                Official Union Time Tracking System
 LRS                  Labor Relations Specialist
 LRL                  Labor Relations Liaison
 MOU                  Memorandum of Understanding
 OPM                  Office of Personnel Management
 OARS                 Operational and Administrative Records Schedules System
 PART                 Program Analysis and Research Team
 RO                   Regional Office
 SSA                  Social Security Administration
 UR                   Union Representative




Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)
                                                       INTRODUCTION
OBJECTIVE
The objective of our review was to assess the corrective actions the Social Security
Administration (SSA) has taken to address recommendations in our July 1998 report,
Use of Official time for Union Activities at the Social Security Administration
(A-13-97-72013). Specifically, we examined the actions SSA took to improve the
recording and reporting of official time and SSA’s related management oversight.

BACKGROUND
In June 1996, the House Committee on Ways and Means conducted hearings on labor
union activities at SSA. During the hearings, the General Accounting Office testified
that “… SSA underreported the official time spent on union activities. Further, it is not
possible to estimate the actual time spent Agencywide for any reporting period because
of limitations in SSA's reporting systems.”5 Consequently, Congress requested that we
provide a more in-depth examination of the use of official time and associated costs.

In 1998, we reported the results of our audit of SSA’s Fiscal Year (FY) 1996 official time
use and costs. We concluded that management oversight weaknesses and problems
associated with SSA’s processing and reporting of official time prevented the Agency
from producing reliable reports. We made specific recommendations for improving the
recording, reporting, and management oversight of official time (Appendix A).

In March 2000, we responded to a request from the Committee on Ways and Means,
Subcommittee on Social Security, concerning the status of corrective actions SSA had
taken to address our 1998 report. As part of our response, we informed the
Subcommittee that we would initiate a follow-up review of SSA’s reported corrective
actions.

Each year, as requested by the House Appropriations Committee Report 105-205,
Federal agencies report labor union-related activities and costs to Congress. In
FY 2000, SSA reported that it used about 403,500 official time hours for union-related
activities at a cost of approximately $13.5 million. The Agency also reported that
1,864 union representatives (UR) used official time. Of these, 127 employees “spent
100 percent of their time on union activities.”6




5
    GAO/HEHS-97-3 report.
6
 An employee using official time to perform representational activities for 75 percent or more of all work
hours is considered a full-time UR.


Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)                                  1
Unions at SSA

The Civil Service Reform Act of 1978 (CSRA)7 authorized official time use and provided
a basis for Federal agency and labor unions to negotiate collective bargaining
agreements.

The CSRA:

·     gives employees a statutory right to use official time to attend contract negotiations
      and negotiate whether labor URs are granted official time for other labor and
      management activities, such as conducting and receiving training;

·     permits Federal agencies to provide the labor unions routine services and facilities at
      the agency’s expense; and

·     prohibits official time use for internal union business, such as soliciting members.

SSA employees are represented by four labor unions. Each union’s collective
bargaining agreement specifies the number of URs it is allowed. As of December 2000,
SSA had a total of 2,462 URs. The American Federation of Government Employees
(AFGE) has 2,283 URs, Association of Administrative Law Judges/International
Federation of Professional and Technical Engineers has 147 URs, National Treasury
Employees Union has 31 URs, and National Federation of Federal Employees has
1 UR. Use of official time is limited to URs.

SSA’s Oversight of Official Time Use

The Office of Labor, Management, and Employee Relations (OLMER) within the Deputy
Commissioner’s Office of Human Resources at SSA Headquarters administers the
Agency’s labor-management and employee relations program. OLMER also represents
the Agency in labor union negotiations; develops Agency-wide policies and procedures
for the use of official time; and oversees the recording, reporting, and management of
official time and reports official time use and costs to Congress.

Before 1998, SSA used variations of a manual reporting process to report official time
use and costs. In 1996, SSA piloted the Official Union Time Tracking System (OUTTS).
OUTTS is an automated information system intended to track the use of official time.
For example, the system tracks bank8 and non-bank9 official time hours; monitors URs’
use of official time for certain activities, and generates management reports. In
7
    5 U.S.C. §§ 7101 et seq. (2001).
8
 “Bank time” is official time that is allocated for certain representational activities based on a negotiated
bargaining agreement between SSA and the union(s).
9
 “Non-bank time” is official time that may be used for union activities based on a negotiated bargaining
agreement without a cap or limit on the amount of time that can be used by the UR.



Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)                                     2
July 1998, SSA and AFGE signed a Memorandum of Understanding (MOU) to use
OUTTS for recording the official time use of URs located in field offices and teleservice
centers. An electronic spreadsheet was used to capture official time by the other
Agency components (SSA Headquarter offices, program service centers, and the
Offices of Hearings and Appeals) to record and report the use of official time.

On May 10, 2001, SSA and AFGE signed another MOU. It expanded the use of
OUTTS for recording and reporting official time use of AFGE-designated URs in all
Agency components. As of December 2000, AFGE-designated URs represented
76 percent of all Agency URs. The remaining 24 percent of the Agency’s URs’10 official
time use was recorded and reported using the electronic spreadsheet.

Recording and Reporting of Official Time Use

OLMER uses labor relations specialists (LRS) and liaisons (LRL) to oversee the
recording, reporting, and management of official time use within SSA. LRS are located
in Agency regional offices (RO) and verify and report the use of official time for the field
offices and teleservice centers using OUTTS. LRLs are located at other Agency
locations and record and report official time use by utilizing the electronic spreadsheet.

Both OUTTS and the electronic spreadsheet process require URs to submit official time
forms11 to their supervisors for review and approval when they use official time. As of
the date of our review, there were three official time forms in use.12 The location and/or
labor union affiliation of the UR determines which form is used. After the supervisor
approves the official time form, appropriate information is subsequently entered into
either OUTTS or the electronic spreadsheet, whichever system is used.

For official time reporting using OUTTS, OLMER relies on the LRS in the RO to check
the accuracy of information reported by the field offices and teleservice centers. Fifteen
days upon the end of each fiscal quarter, OLMER provides the LRS with an OUTTS-
generated summary report containing official time use for that quarter.13 OLMER
requests that this information be reviewed for accuracy. Each RO uses whatever
process it has developed to verify official time use. Once the review is complete, the
LRS signs and sends a response to OLMER verifying the accuracy of the report.

10
  These are URs for the Association of Administrative Law Judges/International Federation of
Professional and Technical Engineers; National Treasury Employees Union; and National Federation of
Federal Employees.
11
   The MOU signed on May 10, 2001 also included an agreement to develop an electronic official time
form to eliminate the use of multiple paper forms. No specific time was designated in the MOU for
implementation of the electronic official time use form.
12
 URs use an official time form to report official time activity. The form numbers are SSA-75-U4,
SSA-75-U4-F and SSA-478.
13                                                                   th
   Supervisors can input and edit data entered into OUTTS until the 15 day of the month following the
close of the quarter.


Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)                             3
When the electronic spreadsheet is used to report official time use, OLMER relies on
LRLs in the non-field office components to check the accuracy of information contained
on the spreadsheet. Within 10 days of the end of each fiscal quarter, LRLs in non-field
office components are notified via e-mail to review reported official time use. Attached
to the e-mail are (1) an electronic spreadsheet with a UR listing; (2) a form identifying
various official time information to be reported; and (3) instructions for the completion of
the quarterly report spreadsheet. The LRLs are instructed to enter data, total official
time hours reported, and verify active URs. The completed documents are
electronically sent to OLMER.

After 15 days upon the close of the quarter, OLMER is the only entity authorized to
make changes to reported official time in the OUTTS system. If changes are
necessary, the appropriate field office routes the documentation through the regional
office with the requested changes. OLMER makes all adjustments to the official time
use reported during the fourth quarter of the FY.14

SCOPE AND METHODOLOGY
To assess the corrective actions taken to address recommendations in our July 1998
report related to recording, reporting, and management oversight of official time, we
reviewed applicable laws, policies, procedures, internal reports, and external reports. In
addition, we took the following actions.

·     We interviewed personnel in SSA’s OLMER and the Office of Information
      Management Systems to obtain information concerning actions taken by SSA to
      address prior audit report recommendations. We also obtained information about
      the policies, procedures, and practices used in the recording, reporting, and
      management of official time use.

·     We visited a district office in Baltimore, Maryland.15 We interviewed staff and
      observed activities related to the recording and reporting of official time use. We
      also reviewed a random sample of completed official time forms, observed the
      process for recording official time use in OUTTS, and assessed the record retention
      of official time forms.

·     We assessed the information generated from OUTTS to determine whether the
      system was able to provide an accurate list of current URs and coding of official time
      activities; verify official time data are entered; and confirm official time data entries
      are made for union officers. Of the 127 URs that spent 75 percent or more of their



14
 The same process is used for both OUTTS and the electronic spreadsheet to request changes and
make adjustments to reported official time use.
15
     We selected this SSA office based on proximity to SSA’s Headquarters.



Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)                      4
      time on union activities during FY 2000, we selected a random sample of 30 URs16 to
      review. For our sample, we matched the official time form information for the fourth
      quarter of FY 2000 with official time use reported in OUTTS.17 We used common
      business orientation language (COBOL) computer programs to match the OUTTS
      data files and extract pertinent information.18

·     We reviewed procedures used to implement the OUTTS system. For example, we
      reviewed SSA’s validation procedures used for implementing OUTTS requirements.
      We also examined SSA’s authentication of procedures used to accumulate data in
      OUTTS, and we reviewed the testing of the functional requirements and
      enhancements.

·     We obtained and reviewed policies and procedures that were issued in response to
      related 1998 audit report recommendations, bargaining agreements, Official
      Time/Partnership Activities Yearbook – 1998, and reports issued annually to
      Congress concerning official time use and costs.

The work we performed during our review was limited to certain recommendations in
our 1998 report.19 We did not assess corrective actions taken to determine whether
official time is being used for appropriate activities and amounts of time20 or the
recording and reporting of “Partnership time” as official time.21 In addition, we did not
perform work related to allegations or suspicions of official time abuse.

We conducted this review in Baltimore, Maryland. The entity reviewed was OLMER
within the Deputy Commissioner’s Office of Human Resources. We performed our
review from March 2001 through June 2001 in accordance with the Quality Standards
for Inspections issued by the President’s Council on Integrity and Efficiency.



16
    See Appendix B for information concerning the sampling methodology used.
17
  The names of full-time URs and their profile, for example, location, allocated bank hours, used bank
hours, and affiliations, are examples of information used for our match.
18
  COBOL Program 1 matched OUTTS’ “UR” files with its “name” file. COBOL Program 2 matched the
output from program 1 with OUTTS’ “profile” and “bank files.” COBOL Program 3 matched the output from
Program 2 to the OUTTS’ “activity file.”
19
     See Appendix A. Recommendations 2 and 9 in the 1998 Report were not addressed in this report.
20
  Federal Service Labor-Management Relations statute and decisions and the Agency's collective
bargaining agreement restricts management discretion in approving or denying official time requests.
Management's authority to elicit detailed information concerning requests for official time use is limited.
21
   SSA did not agree with this recommendation. Before the release of our 1998 report, the Commissioner
determined that time spent on Partnership activities should not be considered official time. The
Commissioner's decision was based on the premise that Partnership activities do not constitute the type
of representational activity defined in the Federal Service Labor-Management Relations statute.



Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)                                   5
                                              Results of Review
SSA took action to address certain recommendations in our July 1998 report, Use of
Official time for Union Activities at the Social Security Administration
(A-13-97-72013). Of the 10 recommendations contained in the report, we reviewed
Agency actions intended to address report recommendations 1, 3, 4, 5, 6, 7, 8, and 10.
Although SSA has taken action to address the recommendation concerning the
retention of official time records, the Agency's policy did not comply with Federal
requirements.

Agency Had Taken Action To Address Certain Report
Recommendations

                                Our 1998 report identified several deficiencies related
SSA took action concerning      to the recording and reporting of official time
recording and reporting of      information. In the report, we stated these
official time                   weaknesses prevented us from determining whether
                                official time use and costs were accurately reported to
Congress. We made 10 specific recommendations for improving the recording,
reporting, and management oversight of official time. Of these, highlights of eight
recommendations as well as a description of the Agency's corrective actions taken to
address the recommendations follow.

    Recommendation 1: Improve official time information. We determined that SSA
was maintaining an accurate, up-to-date list of URs.22 For the fourth quarter of
FY 2000, we determined that the number of URs did not exceed the limitations specified
in the bargaining agreements between SSA and the labor unions.

    Recommendation 3: Monitor the coding or categorizing of the type of UR activity so
activities that have limits are not improperly reported as an unlimited activity. Before the
release of our July 1998 report, SSA issued a memorandum to its supervisors
instructing supervisors to monitor URs’ coding/categorizing of union-related activities to
prevent exceeding limits on certain activities. In addition, the employee unions’
collective bargaining agreements specify that the supervisor should receive sufficient
general information when official time is used, to ensure the activity is one for which
official time would be authorized. However, URs are not required to discuss details of
the activity with the supervisor.

We verified that OUTTS monitors the limits placed on official time use by national,
regional and local allocations. OUTTS can issue alerts to supervisors when URs are
close to exhausting the allocation of official time available for use. We did not
determine whether all supervisors using the electronic spreadsheet for recording and

22
  We did not perform procedures to determine whether only authorized URs received supervisory
approval for the use of official time.


Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)                     6
reporting of official time use complied with the guidance for monitoring URs’
coding/categorizing of union-related activities. Review of official time use by the URs in
our sample using OUTTS and the electronic spreadsheet indicated all were within the
limitations specified for official time use.

In addition, the Program Analysis and Research Team (PART) conducts periodic official
time reviews of Agency components reporting official time use. SSA established PART
to provide management oversight of the Agency’s official time use. As an oversight
function, PART examines a sample of official time forms for accuracy and interviews the
supervisors concerning official time reporting issues.

    Recommendation 4: Improve procedures to ensure that allegations or suspicions of
abuse are resolved in a timely manner. After the issuance of our report, SSA
negotiated collective bargaining agreements that contain provisions for handling
allegations and suspicions of abuse. OLMER reports it relies on the bargaining
agreement provisions to administer the process for handling such allegations or
suspicions. Further, the Deputy Commissioner for Human Resources issued guidance
to reinforce bargaining agreement provisions dealing with official time issues and
suspicions or allegations of official time abuse. The guidance established a process for
discussing such allegations and advising supervisors of the disposition of their referrals
of suspected abuse situations.

    Recommendation 5: As recommended, OUTTS can confirm receipt of official time
recorded within the system. However, SSA relies on LRLs to ensure that official time
use is accurately entered onto the electronic spreadsheet. Upon the close of each FY
quarter, PART forwards official time use reports to LRLs. After reviewing the reports,
policy requires that LRS and LRLs notify PART of any adjustments to the official time
recorded in OUTTS or on the electronic spreadsheet. As previously stated, PART is the
only entity authorized to make changes in reported official time after the close of the
FY quarter. If changes are needed, PART makes all requested adjustments to official
time at the end of the FY. When PART reviews information contained in the OUTTS-
generated or electronic spreadsheet-generated quarterly reports, the LRS and LRLs are
contacted if official time use is not reported.

    Recommendation 6: Improve controls to ensure that official time records are
accurately summarized and reported. SSA implemented OUTTS to track the time URs
spent on union activities. When OUTTS is used to record and report official time use,
PART issues OUTTS-generated summary reports for the fiscal quarter to the LRS.
Also, at the end of the FY, reports containing all official time use and adjustments for the
FY are issued to the LRS for review. To determine whether the information contained in
the reports is accurate, the LRS are asked to reconcile information contained in the
report with official time records. After reconciling the information, the LRS’ notify PART
of any needed adjustments.




Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)               7
For OUTTS and the electronic spreadsheet process, OLMER states that each location
uses its own, self-developed process for the reconciliating of the summary report.

    Recommendation 8: We also recommended in our 1998 report that SSA develop
policies and procedures to ensure official time is consistently reported for union officers.
In August 1998, SSA and AFGE signed an MOU requiring union officers to complete an
official time form each week. OLMER reports the official time use of URs, including
union officers, on a quarterly basis to SSA’s Office of Budget, Division of Finance. The
Division of Finance uses this information to calculate the Agency’s cost for the use of
official time.

    Recommendation 10: In our 1998 report, we recommended that SSA establish a
mechanism to evaluate official time use benefits, disadvantages, and impact on service
to the public. SSA complied with the Office of Personnel Management’s (OPM) request
for Calendar Year 1998 official time data by using OLMER’s information for compiling
and reporting official time use. Further, SSA's management stated that OLMER’s
system for collecting and reporting official time use enables the evaluation of official
time use benefits and its impact on the Agency’s service to the public. In its 1998 report
to OPM, SSA did not report any disadvantages regarding the use of official time.

In reviewing SSA’s annual reports to Congress from FY 1998 to FY 2000, we found the
Agency has complied with certain reporting requirements.23 SSA provided information
on official time costs associated with union activities, the benefits of official time use,
and information concerning official time use affecting service to the public. However,
we did not find disadvantages of official time use included in any documentation or
statements provided to Congress. We did not independently verify the accuracy of the
information reported to OPM in November 1998 or the information reported to Congress
from 1998 to 2000.




23
   As requested by the House Appropriations Committee Report 105-205, SSA submits an annual report
to Congress on official time use and costs of union activities.



Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)                          8
                            In August 1999, SSA established PART to provide
SSA created a special       management oversight of the Agency’s official time use.
team to oversee official    PART issues official time policies and procedures and is
time use                    responsible for compiling and reporting SSA’s official time
                            use and costs to Congress. In addition, PART conducts
monthly teleconference discussions24 with LRS and LRLs about official time recording
and reporting and performs periodic reviews (Official Time Reviews)25 of official time
use.

When performing its ad hoc reviews, PART examines completed official time forms and
conducts interviews with supervisors. The Team documents its findings and makes
recommendations to improve any detected deficiencies. If recurring errors are
detected, PART reviews the recording and reporting of specific offices’ official time use.

During our review, we observed a PART teleconference discussion and reviewed
Official Time Review reports for FYs 1999 through 2001. The monthly teleconference
calls provide an efficient way to convey current information on official time use and
discuss relevant union-related issues. In addition, the Reviews provide SSA
management an assessment of official time use and offer recommendations to improve
cited deficiencies.

SSA’s Record Retention Policy Did Not Comply With Federal
Requirements

Although SSA took action to address our July 1998 recommendations to improve the
recording, reporting, and management oversight of official time use, a noteworthy
deficiency still exists concerning the retention of official time records. In our 1998
report, we recommended that SSA establish a uniform retention policy for official time
records. At that time, we stated that documents needed to be maintained to verify data
on official time records and may be necessary to resolve any allegations or suspicion of
misuse.

In 1999, to reinforce SSA’s official time use record retention policy, OLMER issued an
addendum to the 1998 Official Time/Partnership Yearbook.26 The Yearbook required
supervisors of URs to maintain official time forms for a 3-year period or for longer
periods of time, if litigation is pending on the issue or if the matter is in the administrative

24
   PART schedules monthly conference calls with all LRSs and the LRLs to discuss issues relating to
official time use and the implementation of OUTTS, and it responds to any concerns relating to union-
related activities.
25
   As of September 2001, PART has completed seven reviews. In FYs 1999 and 2000, three reviews and
three follow-up reviews were completed in the same areas: (1) Headquarters, (2) Philadelphia region and
(3) Chicago region. One review was conducted in FY 2001 in the Seattle regional office.
26
   The Official Time/Partnership Activities Yearbook consolidated all policies and procedures on official
time use into one central location.


Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)                                 9
or judicial process. The 3-year period for retaining the forms conformed to SSA’s policy
for the retention of time and attendance records.

Within the Government, the preservation of records is critical to ensure that each
agency’s records contain accurate and complete documentation of the organization,
functions, policies, decisions, procedures and essential transactions of the agency. The
National Archives and Records Administration is responsible for establishing policies
that govern the retention and destruction of Federal agencies’ records. National
Archives and Records Administration’s policy, General Records Schedule 2, Payroll and
Administration Records, Time and Attendance, sections 7 and 8, establishes Federal
regulations for the retention and destruction of time and attendance records. The
General Records Schedule 2 states that time and attendance documents and
associated input records can be destroyed after a General Accounting Office audit is
conducted, or when 6 years has expired, whichever occurs first.

Although the addendum to the 1998 Official Time/Partnership Yearbook complied with
SSA policy, SSA’s policy for the retention of time and attendance records does not
comply with Federal requirements concerning the retention of time and attendance
documents and associated input records. As a result, the Agency may not be keeping
official time records for the required period to substantiate official time use and costs.




Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)              10
                                                 Conclusion and
                                                Recommendation
SSA has taken action to address our July 1998 recommendations to improve the
recording, reporting, and management oversight of official time use. For example, the
Agency created a special team to provide management oversight of official time. Such
actions indicate that the Agency continues to make progress toward improving its
accountability of official time use and costs. Although SSA did take action to address
our recommendations, a noteworthy deficiency still exists concerning the retention of
official time records. The Agency's policy for the retention of time and attendance
records should comply with Federal requirements.

Consequently, we recommend that SSA:

1. Update its policies to comply with Federal requirements to ensure that time and
   attendance records are retained for 6 years.

AGENCY COMMENTS

SSA agreed with our recommendation. In addition, the Agency provided technical and
editorial comments. The full text of the Agency’s comments is included in Appendix C.

OIG RESPONSE
We reviewed the Agency's formal comments and agree with the editorial changes. In
addition, we agree in part, with the technical comments related to the Other Matters and
have made the appropriate changes.

SSA stated in its technical comments that its record retention schedules are in full
compliance with the National Archives and Record Administration’s guidelines that Time
and Attendance rosters be kept 6 years. Further, the Agency stated that it maintains its
retention schedules in the Operational and Administrative Records Schedules System
(OARS) on the SSA Digital Library (http://library.ba.ssa.gov/quicklist.htm). We were
unable to verify this information.

Moreover, the Agency stated that the problem cited in our report refers to an addendum
made to the 1998 Official Time/Partnership Yearbook instructing supervisors of Union
Representatives to maintain official time forms for 3 years. We disagree with the
Agency. We based our review on the Agency’s records retention policy for time and
attendance, which is denoted in the Department of Health and Human Services’ Guide
for Timekeepers. During our review, staff in the Center for Policy and Staffing, within
the Office of Personnel Operations, identified the Department of Health and Human



Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)           11
Services’ Guide as containing the Agency’s official time and attendance record retention
policy.




Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)           12
                                                                Other Matters
In 1998, we recommended that SSA improve its management controls to ensure that
official time use is accurately summarized and reported. At that time, we suggested that
SSA reconcile various official time information and identify duplicate reporting of official
time use. During this review, we determined that official time information is reconciled
when OUTTS and the electronic spreadsheet process are used to record and report
official time.

Of the 30 URs included in our sample, we compared the FY 2000 fourth quarter official
time forms (7,607 hours) for 22 URs to the official time use recorded in OUTTS
(7,746 hours). We identified discrepancies in our comparison for 10 URs. For these
URs, we identified the underreporting of 241 hours and the overreporting of 102 hours
in OUTTS. When summed, these discrepancies resulted in a total of 139 hours of
official time not reported. The estimated cost of these hours is about $4,000.

For the same time period, we also compared official time forms to the electronic
spreadsheet used to record and report official time for the remaining eight URs in our
sample. We identified 256 hours over reported on the spreadsheet. The estimated cost
of these hours is approximately $7,000.

As a result of the above discrepancies, about $11,000 (395 hours) in official time cost
was incorrectly reported. Of this amount, the Agency overreported $7,000 in official
time costs and underreported $4,000 in official time costs.

During our comparison of the official time forms and the reported official time, we also
noted the following.

·   Official time forms were missing for the period reviewed.

·   Official time forms were not signed and authorized by the supervisor.

Although the discrepancies noted during our review are not significant, we are providing
this information to SSA for its use in taking corrective actions, as it deems necessary
and appropriate, to improve the accuracy of the official time costs reported to Congress.




Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)                13
                                        Appendices




Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)
                                                                              Appendix A

Prior Office of the Inspector General Audit
In 1998, we completed an audit on the Use of Official Time for Union Activities at the
Social Security Administration (A-13-97-72013). We concluded that management
oversight weaknesses and problems associated with SSA's processing and reporting of
official time prevented the Agency from producing reliable reports. We made specific
recommendations for improving the recording, reporting, and management oversight of
official time. Listed below are the 1998 report recommendations.

Recommendation 1

   Maintain accurate, up-to-date listings of union representatives (UR), as required by
   the collective bargaining agreement to ensure that:

     a) Supervisors only approve requests for the use of official time for authorized
        URs.

     b) The number of authorized URs does not exceed the limitations specified in the
        collective bargaining agreements at any given time.

Recommendation 2

   Improve its management oversight to help determine whether official time is used for
   appropriate activities and appropriate amounts of time. To accomplish this objective,
   SSA should:

    a)    Instruct supervisors to have official time forms filled out as precisely as
          possible using existing codes and sub-codes where applicable. If more
          diligent completion of the official time forms still does not enable supervisors to
          make an informed decision as to the appropriateness of the activity or the time
          requested or used for that activity, SSA should pursue revisions of the forms
          toward that end during negotiations on future collective bargaining
          agreements.

     b) Instruct supervisors of National Treasury Employees Union URs to use the
        prescribed official time forms in accordance with the terms of the collective
        bargaining agreement.

     c)   Remind all supervisors that official time must be approved in advance of its
          usage.

     d) Periodically verify a sample of official time used to ensure that official time
        records are accurate.


Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)               A-1
Recommendation 3

   Monitor the coding or categorizing of the type of UR activity so that activities that
   have limits are not improperly reported as an unlimited activity. To accomplish this
   objective, SSA should require that information on the official time record specifying
   the type of activity be completed time be used, the user must specify the activity for
   which the official time is used, and periodically test such records for accuracy.

Recommendation 4

   Improve procedures to ensure that allegations or suspicions of abuse are resolved in
   a timely manner. Procedures should address time frames for union cooperation in
   providing requested documents, a specific document retention schedule for union
   copies of official time forms, and a process to address situations where time frames
   are not met or the union does not cooperate. Also, supervisors should be advised of
   the disposition of their referrals whenever appropriate.

Recommendation 5

   Improve controls to ensure that official time data are complete. There should be
   confirmation of receipt when official time reports are submitted. Also, a followup by
   appropriate labor relation's staff should be required for any period in which a report
   was not filed.

Recommendation 6

   Improve controls to ensure that official time records are accurately summarized and
   reported. SSA should:

   a) Reconcile individual official time records to summary reports and reconcile
      component and/or regional summary reports to the Agency-wide report before it
      is provided to the Office of Personnel Management and the Congress.

   b) Compare official time records that have been submitted by supervisors to any
      records that may have been previously reported or calculated into the totals to
      identify duplicate reporting of official time.

   c) Compare the official time records to the amounts summarized and entered in the
      automated system (YY system) for processing official time.

Recommendation 7

   Establish a uniform retention policy for official time records. These source
   documents need to be maintained to verify the data on official time records and may
   be necessary to resolve any allegations or suspicion of misuse.



Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)             A-2
Recommendation 8

   Develop policies and procedures to ensure official time is consistently reported for
   union officers. This will correct the inconsistent reporting which has caused an
   overstatement of the salary costs for some union officers.

Recommendation 9

   Revise its policies and procedures for recording Partnership Time so that URs, as
   well as SSA supervisors, know which of the activities should be reported as
   “partnership” or official time. Official time records should be revised to reflect these
   changes.

Recommendation 10

   To comply with Office of Personnel Management’s request for Calendar Year 1998
   data on official time, SSA should establish a mechanism to evaluate the benefits and
   disadvantages of official time and its impact on SSA’s service to the public.




Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)               A-3
                                                                              Appendix B
Sampling Methodology
In Fiscal Year 2000, there were 1,864 union representatives (URs) who used official
time. Of those, 127 URs spent 75 percent or more of all work hours using official time.
We randomly selected 30 of the 127 URs for our sample. For the 30 URs, we reviewed
the official time records and applicable data entries: 22 URs recording and reporting
official time use in Official Union Time Tracking System (OUTTS) and 8 URs recording
official time on electronic spreadsheets. We selected and reviewed information from the
fourth quarter of Fiscal Year 2000 because it was the most recent time period for which
official time information was available.

We did not determine whether official time use was appropriately recorded and reported
for the 1,864 URs. Using the sample of 30 URs, we assessed the recording and
reporting capabilities associated with OUTTS and the electronic spreadsheet
processes. For our sample, we determined whether OUTTS and the electronic
spreadsheets' "data fields" recorded and reported official time use information.




Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)
                                                                              Appendix C

Agency Comments




Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)
                                          SOCIAL SECURITY

MEMORANDUM


Date:          April 8, 2002                                                       Refer To:   S1J-3

               James G. Huse, Jr.
               Inspector General

From:          Larry Dye      /s/
               Chief of Staff

Subject:       Office of the Inspector General (OIG) “Follow-up Evaluation of the Use of Official Time
               (OT) for Union Activities at the Social Security Administration”
               (A-13-01-11005)—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendation are attached.

           Staff questions may be referred to Laura Bell on extension 52636.

           Attachment:
           SSA Response




           Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)                 C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) “FOLLOWUP
EVALUATION OF THE USE OF OFFICIAL TIME (OT) FOR UNION ACTIVITIES AT
THE SOCIAL SEURITY ADMINISTRATION (SSA)” A-13-01-11005


We appreciate the opportunity to comment on the draft report. Overall, we found value in the
report contents and recommendation. We are also providing technical comments that should be
incorporated into the final report.


Recommendation 1

SSA should update its policies to comply with Federal requirements to ensure that time and
attendance records are retained for 6 years.


Comment

We agree. The Office of Human Resources (OHR) highlighted the change in the official time
(OT) documentation retention period at the March 13, 2002, monthly OT conference call. OHR
also documented the change in a formal memorandum to all concerned parties, which was
released on March 29, 2002. We have enclosed a copy for your information.



Technical Comments

Retention Policy

OIG stated in the draft report that the Agency's policy for the retention of time and attendance
records should comply with Federal requirements and recommended that SSA update its policies
to ensure that time and attendance records are retained for 6 years.

The Agency’s records retention schedules are in full compliance and agree with National
Archives and Records Administration's guidelines that Time and Attendance rosters be kept for 6
years. SSA’s retention schedules are maintained in the automated system referred to as OARS
("Operational and Administrative Records Schedules System") on the SSA Digital Library
(http://library.ba.ssa.gov/quicklist.htm).

The problem cited in the OIG report refers to an addendum made to the “1998 Official
Time/Partnership Yearbook” instructing supervisors of Union Representatives (UR) to maintain
official time forms for a 3-year period. The final report should reflect that the Agency’s
retention policies are correct and that the Agency will take remedial action concerning
information published in the 1998 Official Time Partnership Yearbook.



Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)                  C-2
Other Matter

After examination and comparison of the data on the 30 union reps sampled through the use of
official time forms and the automated OUTTS system, we understand how OIG reached the total
discrepancy of 395 hours. However, we do not believe the comparison should be identified as it
is in this section. The discrepancy in the number of hours should not be portrayed as a
difference, or as either under reporting or over reporting. It is incorrect to say that $11,000 in
official time cost was not reported to Congress. At the very least, if the hours are reported as
currently shown, the 256 hours minus the 139 hours amount to a difference of 117 hours
($4,000).




Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)                    C-3
                                                                              Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Shirley E. Todd, Director, General Management Audit Division, (410) 966-9365

Acknowledgments
In addition to those named above:

   Brian Karpe, Lead Auditor
   Sandra Westfall, Analyst-in-Charge
   Steve Weal, Senior Auditor
   Donna Parris, Auditor
   Charles Zaepfel, Computer Specialist


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-01-11005.




Follow-up: Use of Official Time for Union Activities At SSA (A-13-01-11005)
                           DISTRIBUTION SCHEDULE

                                                                             No. of
                                                                            Copies

Commissioner of Social Security                                                  1
Management Analysis and Audit Program Support Staff, OFAM                       10
Inspector General                                                                1
Assistant Inspector General for Investigations                                   1
Assistant Inspector General for Executive Operations                             3
Assistant Inspector General for Audit                                            1
Deputy Assistant Inspector General for Audit                                     1
 Director, Systems Audit Division                                                1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Team Leaders                                                                    25
Income Maintenance Branch, Office of Management and Budget                       1
Chairman, Committee on Ways and Means                                            1
Ranking Minority Member, Committee on Ways and Means                             1
Chief of Staff, Committee on Ways and Means                                      1
Chairman, Subcommittee on Social Security                                        2
Ranking Minority Member, Subcommittee on Social Security                         1
Majority Staff Director, Subcommittee on Social Security                         2
Minority Staff Director, Subcommittee on Social Security                         2
Chairman, Subcommittee on Human Resources                                        1
Ranking Minority Member, Subcommittee on Human Resources                         1
Chairman, Committee on Budget, House of Representatives                          1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        97
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                   Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security; and
the coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic planning
function and the development and implementation of performance measures required by the
Government Performance and Results Act. OEO is also responsible for performing internal
reviews to ensure that OIG offices nationwide hold themselves to the same rigorous standards
that we expect from SSA, as well as conducting investigations of OIG employees, when
necessary. Finally, OEO administers OIG’s public affairs, media, and interagency activities,
coordinates responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.


                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
